APPENDIX

1a
APPENDIX A

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 17-3503
______________
UNITED STATES OF AMERICA
v.
KENNETH DANIELS,
Appellant
______________
On Appeal from the United States District Court
For the Eastern District of Pennsylvania
(D.C. Crim. No. 2-15-cr-00127-001)
Honorable Berle M. Schiller, District Judge
______________
Submitted under Third Circuit L.A.R. 34.1(a)
October 23, 2018
BEFORE: KRAUSE, COWEN, and FUENTES,
Circuit Judges
(Opinion Filed: February 7, 2019)
______________
Emily McKillip
William M. McSwain
Timothy M. Stengel
Robert A. Zauzmer
Office of United States Attorney
615 Chestnut Street

2a
Suite 1250
Philadelphia, PA 19106
Attorneys for Appellee
Karl D. Schwartz
P.O. Box 8846
Elkins Park, PA 19027
Attorney for Appellant
______________
OPINION OF THE COURT
______________
COWEN, Circuit Judge.
Kenneth Daniels appeals from the criminal sentence entered by the United States District Court for
the Eastern District of Pennsylvania. He argues that
a violation of the Pennsylvania Controlled Substance,
Drug, Device and Cosmetic Act, 35 Pa. Stat. Ann.
§ 780-113(a)(30), does not qualify as a “serious drug
offense” under the Armed Career Criminal Act
(“ACCA”), 18 U.S.C. § 924(e)(2)(A)(ii). We must first
decide whether § 924(e)(2)(A)(ii)’s definition of a “serious drug offense” encompasses attempts (as defined
under federal law) to manufacture, distribute, or possess with intent to manufacture or distribute a controlled substance. If it does, we must then consider
whether the scope of attempt and accomplice liability
under Pennsylvania law is coextensive with the meaning of those terms under federal law. Based in large
part on our recent rulings in United States v. Glass,
904 F.3d 319 (3d Cir. 2018), petition for cert. filed (U.S.
No. 18-6748) (Nov. 14, 2018), and Martinez v. Attorney
General, 906 F.3d 281 (3d Cir. 2018), as well as our
older yet still precedential opinion in United States v.

3a
Gibbs, 656 F.3d 180 (3d Cir. 2011), we answer both
questions in the affirmative. Accordingly, Daniels’s
sentence will be affirmed.
I.
Pursuant to a plea agreement, Daniels entered a
guilty plea to one count of being a convicted felon in
possession of a firearm in violation of 18 U.S.C.
§§ 922(g)(1) and 924(e). He had at least three previous
convictions under the Pennsylvania drug statute, 35
Pa. Stat. Ann. § 780-113(a)(30), for possession with intent to deliver cocaine.
Daniels reserved his right to challenge the government’s allegation that he was an armed career criminal under 18 U.S.C. § 924(e).1 If applied, § 924(e) triggers a fifteen-year mandatory minimum. According to
Daniels, his convictions cannot count as ACCA predicates because the elements of the state drug statute
sweep more broadly than the generic definition of a
drug distribution crime. He argued that, “[b]y virtue
of Pennsylvania’s treatment of solicitation and mere
offers to sell, it is far from clear that a violation of 35
Pa.C.S. § 780-113(a)(30), is, as a categorical matter, a
‘serious drug offense’ within the meaning of ACCA.”
(JA25.) At sentencing, Daniels also argued that, without his armed career criminal designation, his Guidelines range would have been 92 to 115 months. However, application of this designation would result in a
Guideline range of 180 months (the statutory mini-

1

Pursuant to United States v. Zudick, 523 F.2d 848 (3d Cir.
1975), Daniels also preserved his right to appeal the District
Court’s denial of his suppression motion. He does not, however,
raise that issue in this appeal.

4a
mum) to 210 months. The District Court rejected Daniels’s challenge and sentenced him to 180 months’ imprisonment.
II.
The District Court had subject matter jurisdiction
under 18 U.S.C. § 3231. We possess appellate jurisdiction pursuant to 18 U.S.C. § 3742(a) and 28 U.S.C.
§ 1291.
Because this appeal raises questions of law, we exercise de novo review. See, e.g., Gibbs, 656 F.3d at 184.
III.
Under 18 U.S.C. § 922(g)(1), it is unlawful for a
felon to possess a firearm. The ACCA mandates a minimum sentence of fifteen years’ imprisonment if the
felon in possession of a firearm has three previous convictions for either “a violent felony” or “a serious drug
offense” (or both):
(e)(1) In the case of a person who violates section 922(g) of this title and has three previous
convictions by any court referred to in section
922(g)(1) of this title for a violent felony or a
serious drug offense, or both, committed on occasions different from one another, such person shall be fined under this title and imprisoned not less than fifteen years, and, notwithstanding any other provision of law, the court
shall not suspend the sentence of, or grant a
probationary sentence to, such person with respect to the conviction under section 922(g).
(2) As used in this subsection—
(A) the term “serious drug offense”
means—
(i) an offense under the Controlled
Substances Act (21 U.S.C. 801 et

5a
seq.), the Controlled Substances Import and Export Act (21 U.S.C. 951 et
seq.), or chapter 705 of title 46, for
which a maximum term of imprisonment of ten years or more is prescribed by law; or
(ii) an offense under State law, involving manufacturing, distributing,
or possessing with intent to manufacture or distribute, a controlled
substance (as defined in section 102
of the Controlled Substances Act (21
U.S.C. 802)), for which a maximum
term of imprisonment of ten years or
more is prescribed by law;
(B) The term “violent felony” means any crime
punishable by imprisonment for a term exceeding one year, or any act of juvenile delinquency
involving the use or carrying of a firearm, knife,
or destructive device that would be punishable
by imprisonment for such term if committed by
an adult, that—
(i) has as an element the use, attempted
use, or threatened use of physical force
against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or otherwise involves conduct that presents a serious
potential risk of physical injury to another; and
(C) The term “conviction” includes a finding
that a person has committed an act of juvenile
delinquency involving a violent felony.
18 U.S.C. § 924(e).

6a
It is undisputed that we must apply the “categorical” approach in order to decide whether Daniels had
at least three previous convictions for “a serious drug
offense.” Id. “When deciding whether a previous conviction counts as a ‘violent felony or a serious drug offense’ under the ACCA, a sentencing court may look
only to the elements of a defendant’s prior conviction,
not ‘to the particular facts underlying those convictions.’” United States v. Abbott, 748 F.3d 154, 157 (3d
Cir. 2014) (quoting Descamps v. United States, 570
U.S. 254, 260-61 (2013)). As the government states in
its appellate brief, “the issue is whether the elements
of the prior crime encompass and are no broader than
the elements described in the federal definition.” (Appellee’s Brief at 14 (citing Abbott, 748 F.3d at 157)). If
the elements of the prior conviction are identical to (or
narrower than) the elements of the generic ACCA
crime, the prior conviction can serve as an ACCA
predicate. See, e.g., Descamps, 570 U.S. at 261. “But if
the statute sweeps more broadly than the generic
crime, a conviction under that law cannot count as an
ACCA predicate, even if the defendant actually committed the offense in its generic form.” Id. The categorical approach “requires a realistic probability, not
a theoretical possibility, that the State would apply its
statute to conduct that falls outside the generic definition of a crime.” Gonzales v. Duenas-Alvarez, 549
U.S. 183, 193 (2007). A defendant may establish such
a probability by showing that the state statute was so
applied in his or her own case or by pointing to other
cases in which the state courts applied the statute in
a non-generic fashion. See, e.g., id. Furthermore, a
“modified” categorical approach may apply to divisible
statutes, i.e., a statute of conviction that lists alternative elements (as opposed to alternative means for
committing the same offense). See, e.g., Mathis v.

7a
United States, 136 S. Ct. 2243, 2248-50 (2016). Documents like the indictment, jury instructions, a plea
agreement, or a colloquy may then be employed to determine the specific crime of conviction. See, e.g., id.
at 2249. “The court can then compare that crime, as
the categorical approach commands, with the relevant
generic offense.” Id.
Section 780-113(a)(30) prohibits (except as authorized by the Pennsylvania drug statute) “the manufacture, delivery, or possession with intent to manufacture or deliver, a controlled substance by a person
not registered under this act, or a practitioner not registered or licensed by the appropriate State board, or
knowingly creating, delivering or possessing with intent to deliver, a counterfeit controlled substance.” As
we recognized in Glass, “Pennsylvania law goes on to
define ‘deliver’ as ‘the actual, constructive, or attempted transfer from one person to another of a controlled substance.’” Glass, 904 F.3d at 322 (quoting 35
Pa. Stat. Ann. § 780-102(b)). “[T]he federal counterpart to this statute, the Controlled Substances Act
(CSA), also defines the ‘delivery’ of a controlled substance to mean ‘the actual, constructive, or attempted
transfer of a controlled substance,’ 21 U.S.C.
§ 802(8).”2 Glass, 904 F.3d at 322. In turn, 21 U.S.C.
§ 802(11) states that “[t]he term ‘distribute’ means to
2

The full federal and state definitions of “deliver” or “delivery”
are nearly identical. According to federal law, “[t]he terms ‘deliver’ or delivery’ means the actual, constructive, or attempted
transfer of a controlled substance or a listed chemical, whether
or not there exists an agency relationship.” 21 U.S.C. § 802(8).
Pennsylvania law states that these two terms mean “the actual,
constructive, or attempted transfer from one person to another
of a controlled substance, other drug, device or cosmetic whether
or not there is an agency relationship.” 35 Pa. Stat. Ann. § 780102(b).

8a
deliver (other than by administering or dispensing) a
controlled substance or a listed chemical.” Pennsylvania’s drug law also defines “distribute” to mean “to deliver other than by administering or dispensing a controlled substance, other drug, device or cosmetic.”
§ 780-102(b). Both federal and Pennsylvania law include statutory provisions addressing attempt and accomplice liability. See 18 U.S.C. § 2 (“Principals”); 21
U.S.C. § 846 (“Attempt and conspiracy”); 18 Pa. Cons.
Stat. Ann. §§ 306 (“Liability for conduct of another;
complicity”), 901 (“Criminal attempt”).
According to Daniels, Section 780-113(a)(30)
sweeps more broadly than the generic federal definition of “a serious drug crime.” Daniels vigorously argues that, unlike the Pennsylvania drug statute, a “serious drug crime” under the ACCA does not include
attempts. He further argues that, “[e]ven assuming
that attempted drug offenses are properly included as
serious drug offense predicates,” Pennsylvania’s drug
act includes conduct that is too inchoate and incipient
to satisfy federal drug law—specifically “mere offers,
mere preparation, and mere solicitation (from the
buyer).” (Appellant’s Brief at 20.) Given our ruling in
Gibbs, we conclude that the ACCA’s definition of a “serious drug offense” encompasses attempts, as defined
under federal law, to manufacture, distribute, or possess with intent to manufacture or distribute a controlled substance. We likewise determine that, based
on this Court’s recent Glass and Martinez decisions,
the scope of attempt and accomplice liability under
Pennsylvania law is coextensive with the meaning of
those terms under federal law.

9a
A. A “Serious Drug Offense” and Attempts

Glass and Martinez were not ACCA cases. On the
contrary, the Glass court considered whether the District Court appropriately applied a career offender enhancement under the Guidelines. See Glass, 904 F.3d
at 321-24. The Guidelines application note “states
that the term ‘controlled substance offense’ applies
not only to a statute that bars distribution of controlled substances, but also to ‘the offenses of aiding
and abetting, conspiring, and attempting to commit
such offenses.’” Id. at 322 (quoting U.S.S.G. § 4B1.2
cmt. n.1). Martinez was an immigration case, see Martinez, 906 F.3d at 284-87, and the immigration provisions at issue explicitly refer to attempts or require a
match with the CSA’s ban on drug trafficking,3 see 8

3

In United States v. Abbott, 748 F.3d 154 (3d Cir. 2014), we considered whether “[Section 780-113(a)(30)] is a ‘divisible’ statute
under [Descamps],” id. at 156. In that ACCA case, we concluded
that Section 780-113(a)(30) is divisible by drug type, thereby permitting the application of the modified categorical approach. Id.
at 157-60; see also United States v. Henderson, 841 F.3d 623, 62663 (3d Cir. 2016) (reaching same conclusion as to 35 Pa. Stat.
Ann. § 780-113(f)(1)). Daniels is correct that Abbott did not specifically address either the question of whether a “serious drug
offense” under § 924(e)(2)(A)(ii) encompasses attempt crimes or
the scope of the Pennsylvania drug statute as to attempt offenses
or accomplice liability. However, we did state that “Abbott’s previous conviction under 35 Pa. Stat. Ann. § 780-113(a)(30) for possession with intent to distribute cocaine is a ‘serious drug offense’
and properly served as a predicate offense for the imposition of
the fifteen-year minimum sentence under the ACCA.” Abbott,
748 F.3d at 160. According to our recent opinion in Glass, “[w]e
have already held that conviction under § 780-113(a)(30) for cocaine-based offenses is not overbroad in the context of the
ACCA’s definition of ‘serious drug offense.’” Glass, 904 F.3d at
323 (citing Abbott, 748 F.3d at 160).

10a
U.S.C. §§ 1101(a)(43)(B) (stating that “aggravated felony” means “illicit trafficking in a controlled substance (as defined in section 802 of title 21), including
a drug trafficking crime (as defined in section 924(c)
of title 18)”), 1227(a)(2)(B)(i) (“Any alien who at any
time after admission has been convicted of a violation
of (or a conspiracy or attempt to violate) any law or
regulation of a State, the United States, or a foreign
country relating to a controlled substance (as defined
in section 802 of title 21), other than a single offense
involving possession for one’s own use of 30 grams or
less of marijuana, is deportable.”).
But Gibbs did consider the meaning of a “serious
drug offense” under the ACCA. The government appealed from the district court’s ruling that a prior conviction under Delaware law for wearing body armor
while committing a felony is not a predicate offense
under the ACCA. Gibbs, 656 F.3d at 182. The defendant had been charged in state court under this body
armor statute and for possession with intent to deliver. Id. at 183. He pled guilty to the first count but
not the second one. Id. On appeal, we agreed with the
government and held “that the body armor conviction
is an ACCA predicate offense because it involved the
possession of cocaine with intent to distribute. Id. at
182. In short, “[i]t is ‘a serious drug offense.’” Id. (quoting § 924(e)(1)).
In this case, it is undisputed that Daniels’s prior convictions
involved cocaine. The government also does not take issue with
Daniels’s characterization of Section 780-113(a)(30) as indivisible with respect to the manner of committing the offense (i.e.,
whether by manufacture, delivery, or possession with intent to
manufacture or deliver, attempted manufacture, delivery, or possession with intent to manufacture or deliver, or acting as an accomplice).

11a
In reaching our decision, we began with the text
of the ACCA:
The issue is whether the body armor conviction “involv[ed] manufacturing, distributing,
or possessing, with intent to manufacture or
distribute, a controlled substance.”
Congress’s use of the term “involving” expands the meaning of a serious drug offense
beyond the simple offenses of manufacturing,
distributing, and possessing a controlled substance. See, e.g., United States v. James, 834
F.2d 92, 93 (4th Cir. 1987) (stating that “violations ‘involving’ the distribution, manufacture, or importation of controlled substances
must be read as including more than merely
crimes of distribution, manufacturing, and
importation themselves”). The plain meaning
of “involve” is “to relate closely” or to “connect
closely.” United States v. McKenney, 450 F.3d
39, 43 (1st Cir. 2006) (citing Webster’s Third
New International Dictionary 1191 (1993) and
The American Heritage Dictionary 921 (4th
ed. 2000), respectively). The definition of a serious drug offense should be construed to extend “§ 924(e) beyond the precise offenses of
distributing, manufacturing, or possessing,
and as encompassing as well offenses that are
related to or connected with such conduct.”
United States v. King, 325 F.3d 110, 113 (2d
Cir. 2003). In adopting this position, we conform with all courts of appeals that have addressed the scope of the definition of a serious
drug offense. See United States v. Vickers, 540
F.3d 356, 365 (5th Cir. 2008); McKenney, 450
F.3d at 42; United States v. Alexander, 331

12a
F.3d 116, 131 (D.C. Cir. 2003); King, 325 F.3d
at 113; United States v. Brandon, 247 F.3d
186, 191 (4th Cir. 2001).
Id. at 184-85.
The Gibbs Court then considered and rejected the
defendant’s theory that the definition of state serious
drug offenses set forth in Section 924(e)(2)(A)(ii)
should be limited to the types of crimes identified by
the three federal statutes (including the CSA) referenced in Section 924(e)(2)(A)(i). Id. at 185. “While both
subsections relate to the same subject, there is no reason to think that subsection (i) should limit our construction of subsection (ii). If Congress wished to do
this, it could have done so [as it did in the “three
strikes” law, 18 U.S.C. § 3559(c)].” Gibbs, 656 F.3d at
185. “Instead, Congress used broad terminology—‘involving’—to define the category of serious drug offenses without limiting its scope to federal statutes.”
Id. “Congress adopted a broad interpretation of ‘a serious drug offense’ because it intended to define ‘an
entire class of state offenses “involving” certain activities, namely, “manufacturing, distributing, or possessing with intent to manufacture or distribute” a
controlled substance.’ Alexander, 331 F.3d at 131
(quoting 18 U.S.C. § 924(e)(2)(A)(ii)).” Gibbs, 656 F.3d
at 185 (“Each state has different serious drug crimes
and different definitions for similar crimes. Thus,
Congress relied upon general language referencing
the entire class of serious state drug offenses.”).
Although the statutory language broadly carves
out a class of serious state drug crimes, Gibbs observed that there are limits to how widely we could
construe this class. Id. “As the First Circuit noted,
‘(n)ot all offenses bearing any sort of relationship with
drug manufacturing, distribution, or possession with

13a
intent to manufacture or distribute will qualify as
predicate offenses under ACCA. The relationship
must not be too remote or tangential.’” Id. (quoting
McKenney, 450 F.3d at 45).
“We must therefore determine whether Gibbs’
body armor conviction is related to or connected with
manufacturing, distributing, or possessing, with intent to manufacture or distribute, a controlled substance or if it is too remote or tangential.” Id. at 18586. Initially, this Court went beyond the terms of the
statute of conviction (which simply proscribes the
wearing of body armor during the commission of a felony) to consider the indictment (alleging in Count I
that Gibbs knowingly wore body armor during the
commission of felony possession with intent to deliver
cocaine as set forth in Count II, which was incorporated by reference) pursuant to the modified categorical approach. Id. at 186-88. We then examined
“whether manufacturing, distributing, or possessing,
with intent to manufacture or [distribute], a controlled substance, is ‘an inherent part or result of the
generic crime’ of wearing body armor while committing a felony, where that felony is possession with intent to distribute cocaine.” Id. at 188 (quoting Brandon, 247 F.3d at 188). We found that the underlying
felony is an inherent part of the offense because “it
must be proven in order to be guilty of the body armor
offense.” Id. While the defendant need not be convicted of a drug offense, the prosecution must still
prove the elements of the drug offense in order to establish that the defendant is guilty of some underlying
felony. Id. “In pleading guilty to the body armor offense, Gibbs pled guilty to the elements of possession
with intent to distribute cocaine.” Id. Wearing body

14a
armor also serves to promote and advance the underlying drug crime (in other words, it makes it more
likely that a felony will occur).4 Id.
We have no trouble concluding that a conviction
under state law for attempted manufacturing, distributing, or possessing with intent to manufacture or distribute a controlled substance that also meets the requirements for an attempted drug crime under federal
law would satisfy the approach we adopted in Gibbs.
Daniels asserts that Gibbs does not extend the
definition of a “serious drug offense” beyond the generic categories of manufacturing, distributing, and
possession with intent. Citing our ruling in United
States v. Tucker, 703 F.3d 205, 213 (3d Cir. 2012), he
contends that “the Gibbs Court held only that a possession-with-intent offense does not cease to be a serious drug offense on the ground that it was the factual
predicate for the felony establishing the crime of possession of body armor in course of a felony.” (Appellant’s Reply Brief at 5 (citing Gibbs, 656 F.3d at 188).)
However, the Tucker Court merely rejected the government’s argument that the state court charge of
conspiracy to sell drugs (which resulted in a conviction) incorporated a separate possession with intent to
deliver (“PWID”) cocaine charge (which resulted in an
acquittal) as the overt act. Tucker, 703 F.3d at 212-13.
We distinguished Gibbs because, unlike the body armor count (which expressly incorporated the drug
charge), “neither the conspiracy Bill nor the conspiracy incorporated the separate PWID charge.” Id. at
213. “The jury could legally have found the overt act

4

We also rejected Gibbs’s argument that “this interpretation of
‘a serious drug offense’ raises a constitutional problem of fair notice.” Gibbs, 656 F.3d at 188-89.

15a
to be possession of marijuana with the intent to deliver. Nothing ‘actually required’ the jury to treat the
separate PWID cocaine charge as the overt act.” Id.
Simply put, if a body-armor conviction is sufficiently “related to or connected with” manufacturing,
distributing, or possessing with the intent to manufacture or distribute a controlled substance to pass
muster under Gibbs, the federal inchoate versions of
these enumerated offenses clearly satisfy the test. As
the government aptly explains, “[t]o say that an attempt to manufacture methamphetamine does not involve manufacturing methamphetamine, or that an
attempt to distribute cocaine does not involve the distribution of cocaine, is untenable.” (Appellee’s Brief at
21.) The criminal attempt to commit an offense “involves” the completed offense.
In McKenney, the First Circuit explained why
“[t]he plain meaning of ‘involve’ is ‘to relate closely’ or
to ‘connect closely.’” Gibbs, 656 F.3d at 184 (quoting
McKenney, 450 F.3d at 43). Rejecting the defendant’s
narrow definition of “involve” as meaning “has as an
element,” to “include,” or to “contain as a part,” the
First Circuit observed that his argument would require “an awkward and unusual construction of the
text to mean that a conspiracy to possess with intent
to distribute does not ‘involve’ possession with intent
to distribute.” McKenney, 450 F.3d at 43 (emphasis in
original) (footnote omitted). “Conspiracies “involve’
their objects, as that term is used in common parlance.” Id. The First Circuit explained: “[w]e need not
decide today where the line is: we hold only that the
relationship between the inchoate offense of conspiracy and its object—its entire purpose—is plainly close
enough that a conspiracy to possess with intent to distribute is, under the ACCA, an offense ‘involving . . .

16a
possessing with intent to . . . distribute.’” Id. at 45 (citing United States v. Fiore, 983 F.2d 1, 3-4 & n.4 (1st
Cir. 1992), abrogated on other grounds by United
States v. Giggey, 551 F.3d 27 (1st Cir. 2008) (en banc);
United States v. Hawkins, 139 F.3d 29, 34 (1st Cir.
1998)); see also id. at 44 (“By contrast, in McKenney’s
case, there is no question that the possession at the
heart of the conspiracy was possession with intent to
distribute. That is the charge to which McKenney
pled.”). Likewise, the relationship between the inchoate offense of attempt and the completed offense the
defendant attempted to commit is plainly close
enough that an attempt to manufacture, distribute, or
possess with intent to manufacture or distribute a
controlled substance is, under the ACCA, an offense
involving manufacturing, distributing, or possessing
with intent to manufacture or distribute a controlled
substance.
In Gibbs, we indicated that “all courts of appeals
that have addressed the scope of the definition of a serious drug offense” have adopted an expansive understanding of this concept. Gibbs, 656 F.3d at 185 (citing
Vickers, 540 F.3d at 365; McKenney, 450 F.3d at 42;
Alexander, 331 F.3d at 131; King, 325 F.3d at 113;
Brandon, 247 F.3d at 191). Since our 2011 ruling, the
circuit courts have continued to apply an expansive
reading of § 924(e)(2)(A)(ii) (and Daniels has not cited
any contrary case law). See United States v. Herrold,
813 F.3d 595, 599-600 (5th Cir. 2016), cert. granted &
vacated on other grounds, 137 S. Ct. 310 (2016);
United States v. Whindleton, 797 F.3d 105, 108-11 (1st
Cir. 2015); United States v. Bynum, 669 F.3d 880, 88488 (8th Cir. 2012). It is also uncontested that every
court of appeals to have considered the specific question of whether a “serious drug offense” under
§ 924(e)(2)(A)(ii) includes attempts has answered this

17a
question in the affirmative.5 See United States v. Coleman, 700 F.3d 329, 339 (8th Cir. 2012); United States
v. Williams, 488 F.3d 1004, 1008-09 (D.C. Cir. 2007);
United States v. Winbush, 407 F.3d 703, 705-08 (5th
Cir. 2005); Alexander, 331 F.3d at 130-31; King, 325
F.3d at 112-15.
Defending the narrower definition expressly considered and rejected by the First Circuit in McKenney,
Daniels invokes the canon of “expressio unius est exclusio alterius—when a statute specifically enumerates some categories, it impliedly excludes others.”
Ray v. Kertes, 285 F.3d 287, 296 (3d Cir. 2002) (citing
Leatherman v. Tarrant County Narcotics Intelligence
& Coordination Unit, 507 U.S. 163, 168 (1993)). According to Daniels, “the offenses listed under Section
924(e)(2)(A)(ii) involve a comprehensive set of ways of
committing narcotics offenses (except for attempts),
leading to the conclusion that the exclusion was ‘not
inadvertence.’” (Appellant’s Reply Brief at 11 (quoting
Barnhart v. Peabody Coal Co., 537 U.S. 149, 168
(2003)).) “Indeed, the other ACCA predicate ‘violent
felony,’ does provide an attempt alternative. See 18
U.S.C. § 924(e)(2)(B) (including ‘attempted use’ of
physical force as violent felony).” (Appellant’s Brief at
17.) The CSA criminalizes attempted federal drug offenses, see 21 U.S.C. §§ 802(8), 846, and, in turn, 18
U.S.C. § 924(e)(2)(A)(i) provides that a “serious drug
offense” includes “an offense under the Controlled

5

The government cites to a number of non-precedential dispositions that have reached the same conclusion regarding the inclusion of attempt crimes. See United States v. White, 288 F. App’x
89, 90 (4th Cir. 2008) (per curiam); United States v. Holt, 246 F.
App’x 602, 609-10 (11th Cir. 2007); United States v. Thomas, 13
F. App’x 233, 240-43 (6th Cir. 2001).

18a
Substances Act.” Daniels therefore argues that Congress, if it had really “intended to include inchoate
conduct as a drug predicate” under § 924(e)(2)(A)(ii),
purportedly could have done what it did with respect
to the other ACCA predicate offenses. (Appellant’s
Brief at 18.) The Guidelines’ application note addressed in Glass (as well as an immigration provision
considered in Martinez) also explicitly refers to attempts. See 8 U.S.C. § 1227(a)(2)(B)(i); U.S.S.G.
§ 4B1.2 cmt. n.1.
Nevertheless, the expressio unius canon has its
limits, e.g., it “does not apply to every statutory listing
or grouping; it has force only when the items expressed are members of an ‘associated group or series,’
justifying the inference that items not mentioned
were excluded by deliberate choice, not inadvertence.”
Barnhart, 537 U.S. at 168 (citing United States v.
Vonn, 535 U.S. 55, 65 (2002)). There was no reason for
Congress to add specific language regarding attempt
crimes because it had already included the term “involving”—a term that both this Court and every other
circuit court to have addressed the issue has concluded must be interpreted broadly (and that, under
this existing case law, clearly encompasses attempts).
Neither § 924(e)(2)(A)(i) nor § 924(e)(2)(B)(i) includes
such expansive language. See, e.g., Alexander, 331
F.3d at 131 (“As the government correctly observes,
the Congress defined the terms ‘violent felony’ and ‘serious drug offense’ in decidedly different manners.
Unlike the definition of ‘violent felony,’ the definition
of ‘serious drug offense’ does not speak in specifics; instead, it defines the term to include an entire class of
state offenses ‘involving’ certain activities, namely
‘manufacturing, distributing, or possessing with intent to manufacture or distribute’ a controlled sub-

19a
stance.” (quoting § 924(e)(2)(A)(ii))). The career offender Guideline similarly defines a “controlled substance offense” as, inter alia, an offense that “prohibits the manufacture, import, export, distribution, or
dispensing of a controlled substance (or a counterfeit
substance) or the possession of a controlled substance
(or a counterfeit substance) with intent to manufacture, import, export, distribute, or dispense.” U.S.S.G.
§ 4B1.2(b) (emphasis added).
In his reply brief, Daniels recognizes that “the
character of federal drug offenses can inform the question of whether a prior drug offense sweeps more
broadly than the elements of the generic offense.” (Appellant’s Reply Brief at 4 (citing United States v.
Mitchell, 218 F. Supp. 3d 360, 368 (M.D. Pa. 2016)).)
A “serious drug offense” includes an offense under
state law involving “distributing” or “possessing with
intent to . . . distribute” a controlled substance. 18
U.S.C. § 924(e)(2)(A)(ii). The federal CSA defines this
term “distribute” to mean “to deliver (other than by
administering or dispensing) a controlled substance or
a listed chemical.” 21 U.S.C. § 802(11). The federal
drug statute then defines the “terms ‘deliver’ or ‘delivery’ as including an “attempted transfer of a controlled substance.” Id. § 802(8). Section 924(e)(2)(A)(ii)
expressly references the CSA in the parenthetical “(as
defined in section 102 of the Controlled Substances
Act (21 U.S.C. 802)).” This Court stated in Rojas v. Attorney General, 728 F.3d 203 (3d Cir. 2013) (en banc),
that “the parenthetical ‘(as defined in section 802 of
Title 21)’ [used in §§ 1227(a)(2)(A)(i)(II) and
1227(a)(2)(B)(i)] is a restrictive modifier that affects
only its immediate antecedent, a ‘controlled substance,’” id. at 209. However, the en banc Court was
simply explaining that “the controlled substance
[must be] as such by federal law.” Id.

20a
Moreover, this analysis does not translate to the
ACCA context because § 924(e)(2)(A)(ii) includes the
terms “manufacturing, distributing, or possessing
with intent to manufacture or distribute” immediately
before the phrase “a controlled substance” and the
parenthetical itself. By referring to the ways of committing a controlled substance offense— which are defined in “section 802 of the Controlled Substance
Act”—the ACCA provision makes it clear that the parenthetical modifies more than just “a controlled substance.” “Congress has [also] demonstrated that it
does not view attempted drug trafficking offenses as
any less serious than completed acts” because it subjected any person who attempts or conspires to commit a drug offense to the same penalties applicable to
the completed offenses. Coleman, 700 F.3d at 339
(quoting 21 U.S.C. § 846).
The D.C. Circuit relied on another well-established canon of statutory construction to reject the defendant’s expressio unius argument:
Moreover, as the district court recognized, the
use of “attempted” in section 924(e)(2)(B)(i)
does not—by itself—indicate that the Congress intended to exclude attempt convictions
from the definition of “serious drug offense[s]”
in section 924(e)(2)(A)(ii). Indeed, well-established principles of statutory construction
counsel otherwise; if we were to adopt Alexander’s reading of section 924(e)(2)(A)(ii), the
term “involving” would be rendered meaningless— “distribution alone would qualify as a
crime ‘involving’ distribution” and possession
with intent to distribute alone would qualify
as a crime “involving” possession with intent
to distribute. United States v. Contreras, 895

21a
F.2d 1241, 1244 (9th Cir. 1990) (rejecting argument that possession with intent to distribute is not crime “involving” distribution). . . . .
Alexander, 331 F.3d at 131.
Daniels challenges this line of reasoning, claiming
that the “term ‘involving’ is necessary to avoid the
problem of nomenclature that necessarily arises when
a federal statute incorporates fifty state statutes.”
(Appellant’s Reply Brief at 13.) Section 780-113(a)(3)
of the Pennsylvania drug statute prohibits the unauthorized “delivery” of a controlled substance, but, unlike § 924(e)(2)(A)(ii), it does not use the term “distributing.” Daniels appears to suggest that, if the ACCA
provision were to include only crimes that “prohibit”
(as opposed to “involve”) distribution, a violation of the
Pennsylvania drug statute would not constitute a “serious drug offense.” (See id. (“In fact, a person can
commit drug offenses in Pennsylvania through ‘distribution’ just not under 35 Pa. Stat. § 780-113(a)(30).
The terms have different definitions (see § 780102(b)), notwithstanding that ‘delivery’ is the equivalent of the generic “distribution” in Section
924(e)(2)(A)(ii).”).)
Daniels offers no case law or any other support for
his rather complicated reading. Both Pennsylvania
and federal drug laws provide essentially identical
definitions of distribution and delivery, defining “delivery” or “deliver” as the actual, constructive, or attempted transfer of a controlled substance and “distribute” as “to deliver” (other than by administering
or dispensing the substance). Compare 21 U.S.C.
§ 802(8), (11) with 35 Pa. Stat. Ann. § 780-102(b). Although this issue was not specifically addressed in our
opinion, we still concluded in Glass that Section 780113(a)(30) constitutes a “controlled substance offense”

22a
under the career offender Guidelines. The Guidelines
nevertheless define a “controlled substance offense” as
an offense that, inter alia, “prohibits” the distribution
of a controlled substance or the possession of controlled substance with intent to distribute (thereby
omitting any “involving” language). Glass, 904 F.3d at
321-24.
Given our precedential opinion in Gibbs, it is not
too surprising that Daniels asks us to reconsider this
ruling in light of subsequent Supreme Court case law.
See, e.g., 3d Cir. I.O.P. 9.1 (“it is the tradition of this
court that the holding of a panel in a precedential
opinion is binding on subsequent panels. Thus, no
subsequent panel overrules the holding in a precedential opinion of a previous panel. Court en banc consideration is required to do so.”). It is also not unexpected
that he challenges the various rulings from other circuits adopting an expansive interpretation of
§ 924(e)(2)(A)(ii) and holding that this ACCA provision encompasses attempts. Daniels contends that the
Supreme Court’s reasoning in Mathis v. United
States, 136 S. Ct. 2243 (2016), calls into question our
interpretation of the imprecise term “involving” as
well as our application of the modified categorical approach. According to Daniels, the focus upon state
statutory elements under the categorical approach
“cuts against the argument that the presence of the
term ‘involving’ in Section 924(e)(2)(A)(ii) should encourage a more elastic approach to inclusion of drug
offenses that do not approximate those listed in Section 924(e)(2)(A)(ii).” (Appellant’s Reply Brief at 8.)
Additionally, Daniels argues “[i]t would violate due
process to impose such liability in the absence of any
such reference [to attempts]. See United States v. Lanier, 520 U.S. 259, 266 (1977) (‘[T]he canon of strict

23a
construction of criminal statutes, or rule of lenity, ensures fair warning by resolving ambiguity in a criminal statute as to apply it only to conduct clearly covered’) (citations omitted).” (Appellant’s October 1,
2018 Letter at 2.) Daniels finally attempts to compare
§ 924(e)(2)(A)(ii) with the ACCA’s “residual” clause
(i.e., “violent felony” means any crime that, inter alia,
“otherwise involves conduct that presents a serious
potential risk of physical injury to another,” 18 U.S.C.
§ 924(e)(2)(B)(ii)). This clause was invalidated as unconstitutionally vague by the Supreme Court in Johnson v. United States, 135 S. Ct. 2551 (2015).
Given the narrow scope of our holding in this case,
we reject Daniels’s assertion that Gibbs and the existing case law interpreting § 924(e)(2)(A)(ii) undermine
the categorical approach. We hold that the definition
of a “serious drug offense” under § 924(e)(2)(A)(ii) encompasses attempts, as defined by federal law, to
manufacture, distribute, or possess with intent to
manufacture or distribute a controlled substance. Our
holding thereby implicates a categorical comparison
between the elements of an inchoate drug crime under
the applicable state law with the elements of such an
inchoate offense under federal drug law (an analysis
we conduct in the next section of this opinion). We accordingly need not—and do not—decide if “Section
924(e) does not require the state statute under which
a defendant was convicted to be co-extensive with a
federal drug statute.” (Appellee’s Brief at 8.) Given
our analysis of Pennsylvania and federal law governing attempts and accomplice liability, we leave for another day the government’s alternative arguments
that, “even if the Pennsylvania statute extended to offers to sell: any statute that bars an ‘offer to sell drugs’
is one ‘involving’ the distribution of drugs under
ACCA, as many courts have held” (id. at 26 (citations

24a
omitted)), and that, even if Pennsylvania’s solicitation
law sweeps more broadly than its federal counterpart,
“[s]uch criminal conduct is not so remote or tangential
to its aim, that is, the actual or constructive transfer
of a controlled substance, to justify disqualification as
a ‘serious drug offense’ under ACCA” (id. at 29). See
Glass, 904 F.3d at 322 (observing that we have yet to
determine whether or in what circumstances state
statutes criminalizing offers to sell constitute “controlled substance offenses,” noting that other circuits
have held state statutes expressly criminalizing mere
offers do not qualify, and, assuming that such statute
sweeps beyond career offender Guideline, concluding
that Section 780-113(a)(30) does not do so).
We also do not agree with the other assertions
raised by Daniels. Daniels (yet again) cites to no case
law rejecting Gibbs or the numerous “serious drug offense” rulings from other circuits based on Mathis, the
rule of lenity, or vagueness concerns. On the contrary,
he draws more attention to this lack of case law by
observing that the Supreme Court in James (which
was overruled by Johnson) “pointed out, as the Government has here, that ‘every Court of Appeals that
ha[d] construed the’ [attempted burglary] issue in
James, ‘ha[d] held the offense qualifies as [an ACCA
predicate.]’” (Appellant’s Reply Brief at 14 (quoting
James v. United States, 550 U.S. 192, 204 (2007)).)
Furthermore, the limits of the modified categorical
approach recently addressed by the Supreme Court in
Mathis have no bearing on the current appeal. Daniels
was not convicted under a statute criminalizing
“wear[ing] body armor during the commission of a felony,’” Gibbs, 656 F.3d at 184 (quoting 11 Del. C.
§ 1449), or stating that if two or more persons conspire
“‘[t]o commit any crime[,] . . . they are guilty of a conspiracy,’” United States v. Trent, 767 F.3d 1046, 1052

25a
(10th Cir. 2014) (quoting Okla. Stat. Ann. tit. 21,
§ 421(A)), abrogated by Mathis, 136 S. Ct. at 2251 &
n.1. Instead, he was convicted of “violations of the
Pennsylvania drug act, which prohibits ‘the manufacture, delivery, or possession with intent to manufacture or deliver, a controlled substance.’” (Appellant’s
Brief at 10 (quoting § 780-113(a)(30)).) It is Daniels
who then goes beyond the bare terms of Section 780113(a)(30) to point out that this specific provision includes attempts as well as completed drug crimes. The
Johnson Court also focused on the “grave uncertainty
about how to estimate the risk posed by a crime,”
Johnson, 135 S. Ct. at 2557, as well as “how much risk
it takes for a crime to qualify as a violent felony,” id.
at at 2558. Unlike the residual clause,
§ 924(e)(2)(A)(ii) does not include any reference to a
potential risk of injury.6
B. Attempts and Accomplice Liability under
Federal and Pennsylvania Law

Because § 924(e)(2)(A)(ii)’s definition of “a serious
drug offense” encompasses attempts (as defined under
federal law) to manufacture, distribute, or possess
with intent to manufacture or distribute a controlled
substance, we must decide whether Pennsylvania
criminalizes conduct under the attempt or accomplice
framework that are not crimes under federal law. According to Daniels, Pennsylvania law sweeps more
broadly than federal law because it criminalizes offers
to sell, mere preparation, and solicitation by the
buyer. We do not agree. Given our recent precedential
opinions in Glass and Martinez, we conclude that
6

We also note that Gibbs expressly considered and rejected a
vagueness challenge to our interpretation of a “serious drug offense.” Gibbs, 656 F.3d at 188-89.

26a
Pennsylvania’s approach to attempts as well as the
state’s doctrine of accomplice liability are coextensive
with its federal counterparts.
The federal and Pennsylvania approaches to attempt liability in the drug offense context are essentially identical. As we have already explained, Pennsylvania law defines “deliver” or “delivery” as “the actual, constructive, or attempted transfer from one person to another of a controlled substance.” 35 Pa. Stat.
Ann. § 780-102(b). The federal CSA “also defines the
‘delivery’ of a controlled substance to mean ‘the actual,
constructive, or attempted transfer of a controlled
substance.’” Glass, 904 F.3d at 322 (quoting 21 U.S.C.
§ 802(8)). Section 846 of the CSA provides that “[a]ny
person who attempts . . . to commit any offense defined
in this subchapter shall be subject to the same penalties as those prescribed for the offense, the commission of which was the object of the attempt.” Most federal courts (including this Circuit) have followed the
Model Penal Code’s framework for attempt liability.
See, e.g., Martinez, 906 F.3d at 284. “Consistent with
the Model Penal Code, federal ‘attempt’ requires intent and a substantial step towards to the commission
of the crime. See United States v. Cruz-Jiminez, 977
F.2d 95, 101-03 (3d Cir. 1992); Model Penal Code
§ 5.01.” Glass, 904 F.3d at 323 n.3; see also, e.g., Martinez, 906 F.3d at 284 (“So we too require a ‘substantial step toward commission of the crime’ that
‘strongly corroborat[es] the firmness of a defendant’s
criminal purpose.’ United States v. Cicco, 10 F.3d 980,
985 (3d Cir. 1993).”). 18 Pa. Cons. Stat. Ann. § 901(a)
states that “[a] person commits an attempt when, with
intent to commit a specific crime, he does any act
which constitutes a substantial step toward the commission of that crime.” While it was undisputed in
Glass that “‘attempt’ under Pennsylvania law has the

27a
same meaning as ‘attempt’ in the CSA and the Guidelines,” Glass, 904 F.3d at 322, Martinez concluded that
both New Jersey and federal attempt law follow the
same Model Penal Code approach, Martinez, 906 F.3d
at 284-85 (“It defines attempt as a purposeful ‘act or
omission constituting substantial step in a course of
conduct planned to culminate in [the] commission of
the crime.” N.J. Stat. Ann. § 2C:5-1(a)(3). And a ‘substantial step’ must be ‘strongly corroborative’ of the
actor’s criminal purpose.’ Id. § 2C:5-1(b).”). The Pennsylvania attempt provision is also based on the Model
Penal Code. See, e.g., 18 Pa. Cons. Stat. Ann. § 901 Jt.
State Gov’t Comm’n cmt. (“This section is derived
from Section 5.01 of the Model Penal Code.”); Commonwealth v. Wojdak, 466 A.2d 991, 1008 n.3 (Pa.
1983) (Hutchinson, J., concurring and dissenting)
(stating that Pennsylvania attempt statute and Model
Penal Code “similarly define” criminal attempt). Accordingly, “[t]here is no daylight between the federal
and [Pennsylvania] formulations [of attempt].” Martinez, 906 F.3d at 285.
Similarly, both states, as well as the federal government and the Model Penal Code, treat some solicitations as attempts. Under New Jersey law, solicitation constitutes an attempt only if it is strongly corroborative of the actor’s criminal purpose. Id. As we
explained in Martinez:
New Jersey’s approach, like that of federal
law, follows the Model Penal Code. Both federal law and the Model Penal Code recognize
that “solicitation accompanied by the requisite intent may constitute an attempt.” United
States v. Am. Airlines, Inc., 743 F.2d 1114,
1121 (5th Cir. 1984); see, e.g., United States v.
Cornelio-Pena, 435 F.3d 1279, 1286-87 (10th

28a
Cir. 2006); Model Penal Code § 5.01(2)(g). Our
Court agrees. Glass, [904 F.3d at 323 n.3]. So
New Jersey law tracks federal law: Solicitation may amount to an attempt when it
strongly corroborates the actor’s criminal purpose. Not all solicitations make the cut, but
some do.
Id. at 285-86; see also Glass, 904 F.3d at 323 n.3 (“In
pointing out this flaw in the logic of Glass’s argument,
we are not suggesting that ‘attempted transfer’ in 21
U.S.C. § 802(8) includes offers or solicitations other
than those that meet the requirements for ‘attempt’
under the CSA. Consistent with the Model Penal
Code, federal ‘attempt’ requires intent and a substantial step towards the commission of the crime.” (citing
Cruz-Jimenez, 977 F.2d at 101-03; Model Penal Code
§ 501)). In reaching this conclusion, we expressly disagreed with a Ninth Circuit solicitation case cited by
Daniels. In Sandoval v. Sessions, 866 F.3d 986 (9th
Cir. 2017), the Ninth Circuit addressed an Oregon delivery statute that resembles New Jersey’s trafficking
law (i.e., they both require a substantial step that is
strongly corroborative of the actor’s criminal purpose
and allow solicitation to amount to attempt). Martinez, 906 F.3d at 286 (citing Sandoval, 866 F.3d at
991). “Yet the Ninth Circuit held that the Oregon law
was broader than federal law. ‘Although [it may be]
strongly corroborative of intent to commit a crime,’ the
court reasoned, ‘offering to deliver a controlled substance does not cross the line between preparation
and attempt for the purposes of the [federal] Controlled Substances Act.’” Id. (quoting Sandoval, 866
F.3d at 990). However, we emphasized the shared origins of federal and state attempt law:

29a
As explained above, federal attempt law is explicitly based on the Model Penal Code. Both
provide that any substantial step that
strongly corroborates the actor’s criminal purpose amounts to an attempt. Model Penal
Code § 5.01(2). The Model Penal Code specifies that solicitation “shall not be held insufficient as a matter of law” if it is strongly corroborative, as we and other circuits recognize.
Id. § 5.01(2)(g); see, e.g., Glass, [904 F.3d at
323 n.3]; Am. Airlines, 743 F.2d at 1121.
We see no reason to reject the Model Penal
Code. Our precedent embraces it. Solicitation,
like any number of other acts, can amount to
a federal attempt. So New Jersey attempt law
is no broader than federal law. Martinez’s conviction is thus an aggravated felony, making
him removable.
Id. at 286-87.
Likewise, Pennsylvania and federal law base their
respective approaches to accomplice liability on the
Model Penal Code. 18 Pa. Cons. Stat. Ann. § 306(c)(1)
states that a person is an accomplice of another person
in the commission of the offense “if (1) with the intent
of promoting or facilitating the commission of the offense, he: (i) solicits such other person to commit it or
(ii) aids or agrees or attempts to aid such other person
in planning or committing it.” This definition is almost identical to the Model Penal Code’s definition of
accomplice liability, e.g. “a person is an accomplice if:
(a) with the purpose of promoting or facilitating the
commission of an offense, he (i) solicits such other person to commit it, or (ii) aids or agrees or attempts to
aid such person in planning or committing it.” Model
Penal Code § 2.06(3). In turn, “[w]hoever commits an

30a
offense against the United States or aids, abets, counsels, commands, induces or procures its commission,
is punishable as a principal.” Id. at § 2(a). Both Pennsylvania law and the Model Penal Code essentially require what we have stated is required to prove aiding
and abetting under federal law, i.e., proof that the defendant had the specific intent to facilitate the crime
and acted to facilitate it. See, e.g., United States v.
Mercado, 610 F.3d 841, 846 (3d Cir. 2010).
“We have yet to determine whether or in what circumstances state statutes that criminalize offers to
sell constitute ‘controlled substance offenses’ under
the Guidelines. Increasingly, however, our sister Circuits have held state statutes expressly criminalizing
a mere ‘offer’ do not.” Glass, 904 F.3d at 322 (citing
United States v. Madkins, 866 F.3d 1136, 1147 (10th
Cir. 2017); United States v. Hinkle, 832 F.3d 569, 572
(5th Cir. 2016); United States v. Savage, 542 F.3d 959,
965-66 (2d Cir. 2008); United States v. Redden, 875
F.3d 374, 375 (7th Cir. 2017), cert. denied, 138 S. Ct.
1343 (2018); United States v. Bryant, 571 F.3d 147,
158 (1st Cir. 2009)). Glass refrained from answering
this question because Section 780-113(a)(30) does not
criminalize mere offers to sell. Id. As we have already
observed in our discussion of § 924(e)(2)(A)(ii) and attempts, we likewise need not—and do not—decide at
this time whether the government is correct that “any
statute that bars an ‘offer to sell drugs is one ‘involving’ the distribution under ACCA” (Appellee’s Brief at
26 (citations omitted)) because the Pennsylvania drug
statute does not “cross[] that line,” id.
In his supplemental submission addressing Glass,
Daniels “recognizes that Circuit precedent now holds
that Pennsylvania does not impose liability for an offer to sell.” (Appellant’s October 1, 2018 Letter at 3.)

31a
We reasoned that Section 780-113(a)(10) does not
mention offers to sell (even though at least one other
provision contained in Section 780-113 does expressly
prohibit offers, see 35 Pa. Stat. Ann. § 780-113(a)(1)).
Glass, 904 F.3d at 322-23. Glass argued that a mere
offer to sell drugs is implied by Pennsylvania’s definition of “deliver,” which, like both the CSA and the
Guidelines, includes attempted transfers. Id. at 322.
We rejected that argument, stating that, “[a]s Glass
does not dispute that ‘attempt’ under Pennsylvania
has the same meaning as ‘attempt’ in the CSA and the
Guidelines, his argument, if accepted, would prove
self-defeating, for if § 780-102(b) sweeps in mere offers
to sell, then by his logic, so does 21 U.S.C. § 802(8) and
U.S.S.G. § 4B1.2, making the state offense broad, but
no broader than the federal one.” Id. at 322-23 (footnote omitted). Furthermore, “the parties have failed
to uncover any authority, such as state judicial decisions or pattern jury instructions, suggesting that
Pennsylvania would prosecute a mere offer to sell under § 780-113(a)(30).” Id. at 323 (citing Duenas-Alvarez, 549 U.S. at 193). The Glass Court then distinguished Pennsylvania’s statutory definition of “deliver” from the more expansive Texas definition at issue in Hinkle and Conley (which expressly states that
“deliver” includes offering to sell) and compared it
with the narrower Illinois understanding of “deliver”
addressed in Redden. Id. Finally, we noted that our
conclusion “is consistent with our prior holdings regarding § 730-113(a)(30) outside of the U.S.S.G.
§ 4B1.1 context,” including our holding in Abbott that
a conviction for cocainebased offenses “is not overbroad in the context of the ACCA’s definition of ‘serious drug offense.’” Id. (citing Abbott, 748 F.3d at 160);
see also, e.g., Martinez, 906 F.3d at 286 (distinguishing Texas law encompassing mere offer to sell without

32a
evidence of possession or transfer as “far cry” from
conviction under New Jersey possession with intent
statute).
In addition to seeking to preserve the “offer to sell”
issue for later review, Daniels purportedly cites to an
authority suggesting that Pennsylvania does in fact
prosecute offers to sell. See, e.g., Duenas-Alvarez, 549
U.S. at 193 (“[T]o find that a state statute creates a
crime outside the generic definition . . . requires a realistic probability, not a theoretical possibility, that
the State would apply its statute to conduct that falls
outside the generic definition of a crime.”). We do not
agree.
In Commonwealth v. Donahue, 630 A.2d 1238 (Pa.
Super. Ct. 1993), the defendant argued that the Berks
County trial court lacked jurisdiction over the drug
possession crimes because the prosecution failed to
adduce evidence that he actually or constructively
possessed marijuana in Berks County (where his supplier, Bieber, lived) as opposed to Bucks County
(where the defendant resided and received the shipment of marijuana), id. at 1242-43. The Pennsylvania
Superior Court, however, determined that Donahue
was properly convicted as an accessory to Bieber’s possession in Berks County. Id. at 1244. In the process, it
looked to Pennsylvania’s crime of solicitation, 18 Pa.
Cons. Stat. Ann. § 902, as well as the state statutory
provision governing accomplice liability, see § 306. Donahue, 630 A.2d at 1243-44.
The Donahue court accordingly applied Pennsylvania’s law of accomplice liability—which is essentially identical to the federal approach to liability for
aiding and abetting. The facts indicated that Bieber
and Donahue were business associates involved in the
distribution of marijuana. Id. at 1244. Donahue told

33a
Bieber by telephone that, if Bieber received a shipment, he would be interested in acquiring it. Id. The
supplier then received a shipment at his home in
Berks County and transported it to the defendant’s
home in Bucks County. Id. “Bieber also testified that
he had conducted business with appellant five to ten
times in the past.” Id. Based on their prior relationship, the Pennsylvania Superior Court believed it
could be reasonably inferred that the statement to
Bieber implied that Donahue “both encouraged and
requested Bieber to obtain marijuana to sell to him.”
Id. Accordingly, the evidence established that he solicited Bieber to purchase and possess the marijuana
with the intent to deliver. Id. The evidence also established that he intended to promote or facilitate the
commission of the offense under the accomplice liability provision: “Taken one step further, it is also reasonably clear that appellant intended to promote
Bieber to commit the offense so that he, in turn could
obtain marijuana to sell.” Id. In fact, Donahue’s conviction was vacated on other grounds, and the Pennsylvania Superior Court specifically directed the trial
judge to “instruct the jury that appellant may only be
found guilty for those actions which occurred in Berks
County if it finds that he was an accomplice to Bieber.”
Id. at 1244 n.8.
We also reject Daniels’s assertion that Commonwealth v. Parker, 957 A.2d 311 (Pa. Super. Ct. 2008),
indicated that Pennsylvania effectively criminalizes
mere preparation. In that case, a police officer conducting a traffic stop found that Parker had a substance that was made to look like cocaine but was actually candle wax. Id. at 317-18. The Pennsylvania
Superior Court affirmed Parker’s conviction for attempted delivery of a counterfeit controlled substance
under 18 Pa. Cons. Stat. Ann. § 901(a) and 35 Pa.

34a
Stat. Ann. § 780-113(a)(35)(ii). Id. Daniels acknowledges that the Pennsylvania Superior Court employed
the substantial step standard (the well-established
standard applicable under the Model Penal Code as
well as both New Jersey and federal law) and found
that the defendant had taken such a step. He argues
that, even under the interpretation most favorable to
the government, Parker did nothing more than prepare the items for a later sale. But the Parker court
never suggested that it was applying some unique approach to the well-established “substantial step” requirement. On the contrary, it explained that the actions that Parker undertook constituted a substantial
step:
He was carrying the cocaine-like substance
with him, packaged in plastic baggies “consistent with the way drug dealers handle or
package crack cocaine,” and he admitted that
he would sell it “if the opportunity presented
itself.” In Commonwealth v. Irby, 700 A.2d 463
(Pa. Super. 1997), we found that a defendant
who packaged candle wax in plastic baggies as
cocaine and tried to sell it to an undercover officer, even though the sale never actually occurred, was sufficient to constitute delivery of
a noncontrolled substance. Here, Parker took
similar substantial steps toward the commission of the same crime, except that he was
waiting for the opportunity of a possible buyer
to present itself. Therefore, the evidence was
sufficient to convict Parker of attempted delivery of a noncontrolled substance.
Id. at 318 (citation omitted). The state court thereby
mirrors the Model Penal Code itself, which identifies
both “possession of materials to be employed in the

35a
commission of the crime, that are specially designed
for such unlawful use or that can serve no lawful purpose of the actor under the circumstances” and “possession, collection or fabrication of materials to be employed in the commission of the crime, at or near the
place contemplated for its commission, if such possession, collection or fabrication serves no lawful purpose
of the actor under the circumstances” as conduct that
could be held to be a substantial step. Model Penal
Code § 501(2)(e), (f).
Like Daniels, Martinez argued that “New Jersey
law treats more forms of inchoate preparation for a
crime as attempt than federal law does.” Martinez,
906 F.3d at 281. We rejected his argument, pointing
out that the most recent explanation of attempt by the
New Jersey Supreme Court distinguishes between
mere preparation and a substantial step and thereby
tracks both the Model Penal Code and federal law. Id.
at 285 (quoting State v. Farrad, 753 A.2d 648, 653
(N.J. 2000)). “In dicta, Fornino stated: ‘It is only ‘very
remote preparatory acts’ which are excluded from the
ambit of attempt liability.’” Id. (quoting State v. Fornino, 539 A.2d 301, 306 (N.J. App. Div. 1988)). Despite
this statement (which goes farther than the language
in Parker), we explained that Fornino was a plain error case and the state court thereby did not have an
occasion to define attempt liability. Id. The New Jersey Appellate Division “simply noted that ‘some preparation may amount to an attempt. It is a question of
degree.’” Id. (quoting Fornino, 539 A.2d at 306). “So
New Jersey courts wrestle with drawing that line, just
as federal courts and the Model Penal Code do.” Id.
The same is true with respect to the Pennsylvania
courts.

36a
Finally, Daniels insists that Pennsylvania criminalizes a buyer’s solicitation. In other words, he argues that, while a drug purchaser cannot be held liable as an accomplice of the seller under federal law, he
or she could be held liable under Pennsylvania law. In
support, Daniels relies on the Pennsylvania Superior
Court’s ruling in Commonwealth v. Moss, 852 A.2d
374 (Pa. Super. Ct. 2004), “which conferred liability
under Section 7512 for a delivery, upon a buyer who
had, only by virtue of being a buyer, facilitated the delivery.” (Appellant’s Reply Brief at 20.) 18 Pa. Cons.
Stat. Ann. § 7512(a) provides that a person commits a
felony of the third degree if that person “uses a communication facility to commit, cause or facilitate the
commission or the attempt thereof of any crime which
constitutes a felony under this title or under the act of
April 14, 1972 (P.L. 233, No. 64), known as the Controlled Substance, Drug, Device and Cosmetic Act.” In
contrast, the United States Supreme Court rejected
the theory that an analogous federal provision (prohibiting the use of a communication facility in committing, causing, or facilitating the commission of any
act or acts constituting a felony under the CSA) applies to someone “making a misdemeanor drug purchase because his phone call to the dealer can be said
to facilitate the felony of drug distribution.” Abuelhawa v. United States, 556 U.S. 816, 818 (2009) (addressing 21 U.S.C. § 843(b)). “To the contrary, Congress used no language spelling out a purpose so improbable, but legislated against a background usage
of terms such as ‘aid,’ ‘abet,’ and ‘assist’ that points in
the opposite direction and accords with the CSA’s
choice to classify small purchases as misdemeanors.”
Id. at 824 (footnote omitted); see also, e.g., id. at 820
(“To begin with, the Government’s literal sweep of ‘facilitate’ sits uncomfortably with common usage.

37a
Where a transaction like a sale necessarily presupposes two parties with specific roles, it would be odd
to speak of one party as facilitating the conduct of the
other.”).
We nevertheless believe that Daniels takes both
Moss and Abuelhawa too far. Daniels was not convicted under Section 7512. As we have already explained in some detail, the federal and Pennsylvania
principles governing accomplice as well as attempt liability are essentially identical (after all, they are
both based on the Model Penal Code). In turn, neither
the Pennsylvania Superior Court nor the United
States Supreme Court was making broad pronouncements about the scope of accomplice liability (or liability for attempt offenses). Although it stated that the
focus of its inquiry would be whether there was sufficient evidence that the defendants’ telephone calls facilitated the actual commission of an underlying felony, the Moss court addressed at some length whether
the defendants took a substantial step toward delivery of a controlled substance under the law of attempt.
Moss, 852 A.2d at 382-84. It even determined that
there was insufficient evidence to support some of the
convictions.7 Id. at 383-84. Rejecting the district
7

According to the Pennsylvania Superior Court, the evidence
was sufficient to sustain Sullivan’s conviction because he placed
a telephone call to Johnson inquiring about purchasing drugs,
Johnson agreed to make the sale, and Johnson was seen briefly
entering Sullivan’s home. Moss, 852 A.2d at 383. “Appellant [Sullivan] made the necessary preparations and arranged a meeting
point at which he and Johnson would complete the illicit transaction.” Id. “The record against Moss establishes, as to Counts 1,
2, 6, 7, and 8, Moss engaged in telephone conversations with a
confidential informant and these telephone conversations facilitated controlled buy transactions between Moss and the informant.” Id. at 384; see also, e.g., id. at 378 (“The only conclusion that

38a

can be reached from the stipulation is that the telephone was
used to make the arrangements for the controlled buys that subsequently did occur between the confidential informant and the
Defendant.”). However, the court found that Moss’s convictions
on Counts 12 and 13 cannot stand because of the absence of any
evidence that Johnson actually attempted to make the delivery
he discussed with Moss. Id. at 384. “The Commonwealth may not
obtain a conviction under § 7512 based solely on evidence that
the Appellant engaged in drug-related telephone conversations
with a known drug trafficker.” Id. Likewise, “the record is devoid
of any evidence that the contemplated transaction between Austin and Johnson actually occurred or that either Austin or Johnson took a substantial step toward completion of the transaction
they discussed.” Id. at 383-84. “Viewed in the light most favorable to the Commonwealth, the evidence establishes merely that
Austin engaged in drug-related telephone conversations with a
known drug trafficker.” Id. at 384.
According to Daniels, the Pennsylvania Superior Court cites
Moss as an example of the breadth of what constitutes a substantial step for attempted delivery in Pennsylvania. See Commonwealth v. Rivers, No. 1004 EDA 2013, 2014 WL 10936727, at *2*5, *16-*17 (Pa. Super. Ct. May 30, 2014) (non-precedential decision). In Rivers, the evidence clearly established that the defendant went beyond mere preparation (e.g., the defendant on his
own initiative gave his telephone number to the undercover officer so that she could contact him to purchase illicit substances,
they engaged in a telephone discussion to arrange a transaction,
setting the price as well as the time and location, the defendant
was proceeding toward and was near the site for the transaction
when he was arrested, and he had a bag containing counterfeit
cocaine). See, e.g., id. at *17. Daniels also claims that “it now appears that a person who solicits another to provide drugs – as by
offering to pay a dealer – may be subject to conviction of delivery
in violation of subsection (a)(30) as an accomplice.” (Daniels’s October 1, 2018 Letter at 3 (citing Commonwealth v. Murphy, 844
A.2d 1228, 1234 (Pa. 2004)).) “In federal law, by contrast, solicitation will not support a drug trafficking conviction under 21
U.S.C. §§ 841(a) and 846. See United States v. Rivera-Sanchez,
247 F.3d 905, 908-09 (9th Cir. 2001).” (Id.) The Murphy court de-

39a
court’s suggestion that Abuelhawa altered the pleading requirements for offenses invoking accomplice liability, we have explained that “[t]he Abuelhawa Court
simply addressed a narrow question regarding the
scope of the term ‘facilitate’ under § 843(b).” United
States v. Huet, 665 F.3d 588, 599 (3d Cir. 2012) (citing
Abuelhawa, 556 U.S. at 818); see also, e.g., id. (“Nor
did the decision modify the law of accomplice liability
under 18 U.S.C. § 2. The elements of aiding and abetting under § 2 remain the same.”). Like Huet, “[w]e
decline to extend its holding any further.”8 Id.
IV.
For the foregoing reasons, we will affirm the mandatory minimum sentence of fifteen years’ imprisonment entered by the District Court.

termined that the jury could have found that the defendant intended to aid in the transfer of drugs by the seller to the undercover officer “based on the evidence that Murphy called out to
Rivas after the trooper approached him, confirmed to Rivas that
the trooper was not a police officer, stayed with the trooper while
Rivas got drugs, and requested compensation from the trooper
for his efforts.” Murphy, 844 A.2d at 1237. The state supreme
court further found that the evidence showed that Murphy actually aided Rivas in transferring the drugs to the trooper by
screening the trooper for the seller. Id. Finally, we expressly rejected the Ninth Circuit’s understanding of federal attempt law
in Martinez. 906 F.3d at 286-87.
8

Accordingly, we need not (and do not) consider whether, even
if Pennsylvania’s solicitation law sweeps more broadly than its
federal counterpart, “[s]uch criminal conduct is not so remote or
tangential to its aim, that is, the actual or constructive transfer
of a controlled substance, to justify disqualification as a ‘serious
drug offense’ under ACCA” (Appellee’s Brief at 29).

